HHS/OIG, Audit - "Review of the Cash Management Procedures Used By The University of Puerto Rico,"(A-02-01-02500)
Department
of Health and Human Services
"Review of the Cash Management Procedures Used By The University of Puerto Rico," (A-02-01-02500)
June 6, 2002
Complete
Text of Report is available in PDF format (4.57 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This report provides the results of our review of the cash management procedures used by the University of Puerto Rico
- Medical Sciences Campus (University) to control the funds advanced to federally funded projects.  The overall objective
of our review as to determine whether the University's cash management policies and procedures were in accordance with
Office of Management and Budget (OMB) Circular A-110, Uniform Administrative Requirements for Grants and Agreements with
Institutions of Higher Education, Hospitals, and Other Non-Profit Organizations.  This required the University to:
(i) minimize the time elapsing between the transfer of funds and their disbursement; (ii) maintain advances of federal
funds in interest-bearing accounts, (iii) remit any interest earned on the advances, and (iv) meet certain other financial
management standards.
Our review included approximately $43 million in federal funds received by the University during the period July 1, 1997
through June 30, 2000.  Of this amount, our review determined that approximately $40.1 million has been drawn down
using the reimbursement methodology, and only $3.2 million had been drawn down under the advance payments methodology.  The
reimbursement methodology is designed to draw federal funds only after the disbursements have been made.  In effect,
the University incurs the expense and then seeks reimbursement from the Federal Government.  The advance payments
method permits the University to have federal funds wired to the University as close as administratively feasible to meet
actual disbursement of funds for sponsored program purposes.